No. 20IN THE

Supreme Court of the United States
THE NORTH AMERICAN MISSION BOARD OF THE
SOUTHERN BAPTIST CONVENTION, INC.,
Petitioner,
v.
WILL MCRANEY,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

CERTIFICATE OF SERVICE

I, Matthew T. Martens, a member of the bar of this Court, hereby certify that, on
this 17th day of February, 2021, all parties required to be served have been served
copies of the Petition for a Writ of Certiorari in this matter by overnight courier to the
addresses on the attached service list.

MATTHEW T. MARTENS
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
matthew.martens@wilmerhale.com

SERVICE LIST
WILLIAM HARVEY BARTON, II
BARTON LAW FIRM, PLLC
3007 Magnolia Street
Pascagoula, MS 39567
(228) 769-2070
harvey@wbartonlaw.com

STEPHEN M. CRAMPTON
THOMAS MORE SOCIETY
309 W. Washington Street
Suite 1250
Chicago, IL 60606
(662) 255-9439
scrampton@thomasmoresociety.org

NATALIE D. THOMPSON
ASSISTANT SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
OF TEXAS
300 W. 15th Street.
Austin, TX 78701
(512) 936-1820
natalie.thompson@oag.texas.gov

2

